Special Reports
Return to the USDOJ/OIG Home Page
USDOJ/OIG Special
Reports
An Investigation of the Immigration and Naturalization Service's Citizenship USA Initiative: PDF files
A-File Policy and Practice
Conclusions and Recommendations
Criminal History Checking Procedures
CUSA's Effects
Executive Summary
Glossary
INS Employees' Allegations
INS Partnerships with Community
Interviews and Adjudications
Introduction
Table of Contents
The Implementation of CUSA
White House
Appendix A
Appendix B
Appendix C
Appendix D
Appendix E
Please read our Privacy and Security Notice